No. 19In the

Supreme Court of the United States
MICHAEL BRUNO, AS PARENTS/GUARDIANS/NEXT
FRIEND OF R.B., A MINOR; R.B., INDIVIDUALLY,
A MINOR; BRITTANY BRUNO, AS PARENTS/
GUARDIANS/NEXT FRIEND OF R.B., A MINOR,
Petitioner,
v.
NORTHSIDE INDEPENDENT SCHOOL DISTRICT,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of A ppeals for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI

A ndrew K. Cuddy, Esq.
Counsel of Record
Cuddy Law Firm, P.L.L.C.
5693 South Street Road
Auburn, New York 13021
(315) 370-4020
acuddy@cuddylawfirm.com
Attorneys for Petitioners

295023

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
This petition follows appeals from an impartial
due process hearing pursuant to the Individuals with
Disabilities Education Act (IDEA), in which the parents
alleged a denial of a free appropriate public education
(FAPE) because, inter alia, the school district failed
to provide “comparable services” under the Act after a
student transferred from out of state. In this case, the
district reduced the student’s programming from a fullday to a half-day program. The question presented is
whether such a reduction is consistent with the mandate
that the school district provide “similar” or “equivalent”
services, as set forth in guidance from the U.S. Education
Department.

ii
LIST OF PARTIES
The parties to the appeal are Michael Bruno, as
Parents/Guardians/Next Friend of R.B., a minor; R.B.,
Individually, a minor; Brittany Bruno, as Parents/
Guardians/Next Friend of R.B., a minor and the Northside
Independent School District.

iii
RELATED CASES
Raylen B., B/N/ F Brittany and Michael B., v.
Northside Independent School District, No. 099-SE-0117,
Special Education Due Process Hearing for the Texas
Education Agency. Judgment entered on October 4, 2017.
Michael Bruno et. al v. Northside Independent
School District, No. 5:17-cv-01129, U.S. District Court
for the Western District of Texas. Judgment entered on
December 12, 2018.
Michael Bruno et. al v. Northside Independent School
District, No. 19-50012, U.S. Court of Appeals for the Fifth
Circuit. Judgment entered on December 17, 2019.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
RELATED CASES . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . vii
OPINION BELOW  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL PROVISIONS AND
STATUTES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE  . . . . . . . . . . . . . . .  3
REASONS TO GRANT PETITION . . . . . . . . . . . . . . . 11
I.

THE IDEA . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

v
Table of Contents
Page
II. THE DISTRICT COURT CORRECTLY
FOUND THAT THE SERVICES WERE
REDUCED BY A HA LF DAY A ND
NISD PLACED THE STUDENT IN A
MORE RESTRICTIVE SETTING, BUT
LEGALLY ERRED IN FINDING THAT
NISD PROV IDED COM PA R A BLE
SERVICES  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
III. T H E C O U R T S S H O U L D H AV E
DIRECTED A PPROPRIATE
RELIEF . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

vi
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR T H E FI F T H CIRCU I T, FILED
DECEMBER 17, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
W E S T E R N DI S T R IC T O F T E X A S ,
S A N A N T ON IO DI V I S ION, F I L E D
DECEMBER 12, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . 4a

vii
TABLE OF CITED AUTHORITIES
Page
CASES:
Board of Educ. v. Rowley,
458 U.S. 176 (1982)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Bruno as Next Friend of R.B. v.
Northside Indep. Sch. Dist.,
788 F. App’x 287 (5th Cir. 2019) . . . . . . . . . . . . . . . . . . 1
C.C. v. Beaumont Indep. Sch. Dist.,
65 IDELR 109 (E.D. Tex. 2015) . . . . . . . . . . . . . . . . . 18
Caldwell Independent School District v. L.P.,
994 F.Supp.2d 811, aff ’d., 62 IDELR 192
(5th Cir. 2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Daniel R.R. v. State Bd. of Educ.,
874 F.2d 1036 (5th Cir. 1989) . . . . . . . . . . . . . . . . . . . . 13
Endrew F. v. Douglas Cty. Sch. Dist. RE-1,
137 S. Ct. 988 (2017)  . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Honig v. Doe,
484 U.S. 305 (1988)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
J.H. ex rel. A.H. v. Fort Bend Indep. Sch. Dist.,
482 F. App’x 915 (5th Cir. 2012) . . . . . . . . . . . . . . . . . 13
Miener v. Missouri,
800 F.2d 749 (8th Cir. 1986)  . . . . . . . . . . . . . . . . . . . . 18

viii
Cited Authorities
Page
R.H. v. Plano Indep. School Dist.,
607 F.3d 1003 (5th Cir. 2010) . . . . . . . . . . . . . . . . . . . .13
STATUTES AND OTHER AUTHORITIES:
20 U.S.C. § 1400(d)(1)(A) . . . . . . . . . . . . . . . . . . . . . . . . . 13
20 U.S.C. § 1412(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
20 U.S.C. § 1412(a)(5)(A)  . . . . . . . . . . . . . . . . . . . . . . 15, 18
20 U.S.C. § 1414(d)(2)(C)  . . . . . . . . . . . . . . . . . . . . . . . . . . 2
20 U.S.C. § 1414(d)(2)(C)(i)(II) . . . . . . . . . . . . . . . . . . . . . 15
20 U.S.C. § 1415(i)(3)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
20 U.S.C. § 1415(a)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
20 U.S.C. § 1414(d)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1291 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
32 C.F.R. § 75.5(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
32 C.F.R. part 57 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  13
34 C.F.R. § 300.1 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

ix
Cited Authorities
Page
34 C.F.R. § 300.323(f) . . . . . . . . . . . . . . . . . . . . . . .  1, 15, 16
34 C.F.R. §§ 300.304 - 300.306  . . . . . . . . . . . . . . . . . . . . . 2
34 C.F.R. §§ 300.320 - 300.324  . . . . . . . . . . . . . . . . . . . . . 2
71 Fed. Reg. 46,681 (2006) . . . . . . . . . . . . . . . . . . . . . . . . 16
“Exceptional Family Member Program—Are the
Military Services Really Taking Care of Family
Members?” 166 Cong. Rec. D121-01, 166 Cong. Rec.
D121-01, D123  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11-12
Falcon Sch. Dist. 49, 116 LRP 16253
(SEA CO 02/19/16)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Letter to Sims, 103 LRP 22737 (OSEP 10/09/02)  . . . . . 16
Military Times, https://w w w.militarytimes.
com /pay-benefits/2020/02/06/ law makersvow-t o -f i x- dod- specia l-needs -prog ra mfor-military-families/  . . . . . . . . . . . . . . . . . . . . . . . . . 12
Questions and Answers on Individualized
Educ. Programs (IEPs), Evaluations, and
Reevaluations, 111 LRP 63322 (OSERS
09/01/11) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15-16
Tex. Admin. Code § 89.1050(G)(2) . . . . . . . . . . . . . . . . . 16
Tex. Educ. Code § 162.002 . . . . . . . . . . . . . . . . . . . . . . . . 16

1
OPINION BELOW
The Memorandum Decision and Order of the court of
appeals is reported in the Federal Appendix as Bruno as
Next Friend of R.B. v. Northside Indep. Sch. Dist., 788
F. App’x 287 (5th Cir. 2019), and is attached as part of the
Appendix (App. 1a). The decision and order of the district
court (App. 4a) is not reported in the Federal Supplement.
JURISDICTION
The judgment to be reviewed was entered in the
United States Court of Appeals for the Fifth Circuit
on December 17, 2019. Jurisdiction in the United States
District Court for the Western District of Texas was
predicated upon 20 U.S.C. § 1415(i)(3), and jurisdiction in
the court of appeals was predicated upon 28 U.S.C. § 1291.
Jurisdiction for this petition is predicated upon 28 U.S.C.
§ 1254(1).
CONSTITUTIONAL PROVISIONS
AND STATUTES
34 C.F.R. § 300.323(f):
IEPs for children who transfer from another
State. If a child with a disability (who had an
IEP that was in effect in a previous public
agency in another State) transfers to a public
agency in a new State, and enrolls in a new
school within the same school year, the new
public agency (in consultation with the parents)
must provide the child with FAPE (including
services comparable to those described in the

2
child’s IEP from the previous public agency),
until the new public agency (1) Conducts an evaluation pursuant to
§§ 300.304 through 300.306 (if determined to
be necessary by the new public agency); and
(2) Develops, adopts, and implements a new
IEP, if appropriate, that meets the applicable
requirements in §§ 300.320 through 300.324.
20 U.S.C. § 1414(d)(2)(C):
Program for children who transfer school
districts
(i) In general
(I) Transfer within the same State
In the case of a child with a disability who
transfers school districts within the same
academic year, who enrolls in a new school,
and who had an IEP that was in effect in the
same State, the local educational agency shall
provide such child with a free appropriate public
education, including services comparable to
those described in the previously held IEP, in
consultation with the parents until such time
as the local educational agency adopts the
previously held IEP or develops, adopts, and
implements a new IEP that is consistent with
Federal and State law.

3
(II) Transfer outside State
In the case of a child with a disability who
transfers school districts within the same
academic year, who enrolls in a new school, and
who had an IEP that was in effect in another
State, the local educational agency shall provide
such child with a free appropriate public
education, including services comparable to
those described in the previously held IEP,
in consultation with the parents until such
time as the local educational agency conducts
an evaluation pursuant to subsection (a)(1), if
determined to be necessary by such agency,
and develops a new IEP, if appropriate, that is
consistent with Federal and State law.
STATEMENT OF THE CASE
R.B. was born in 2011, and, at the time of the underlying
administrative hearing, was attending school in the
Northside Independent School District (NISD). ROA.462.
He is diagnosed with an autism spectrum disorder (ASD)
and experiences accompanying language and behavioral
difficulties. ROA.1536. At all times pertinent to this appeal,
he qualified for special education services under the IDEA.
R.B.’s father serves in the military. ROA.5868. In
January 2016, R.B.’s family moved to Texas due to a
military transfer from their prior residence in Florida.
Id. In Florida, R.B. had attended a full-day “mixed”
(i.e., inclusion) classroom. ROA.5870, 2049. His Florida
individualized education program (IEP) recommended a
separate class with “less than or equal to 40% with non-

4
ESE” students.1 ROA.2049. In that class, R.B. would
receive daily small- group instruction in social interaction,
and in independent functioning, along with language
therapy one hour per week, occupational therapy (OT)
thirty minutes per week, along with 28 monthly minutes
of OT consultation and daily adult assistance with personal
care tasks. Id. The IEP goals focused on peer interactions,
putting toys away, pretend play, motor imitation, following
directions, and requesting. ROA.2043–2046. However, by
changing R.B.’s setting to a more restrictive environment
which included only disabled peers, R.B. was denied
the opportunity to observe and imitate appropriate
peer interaction skills modeled by non-disabled peers.
ROA.2043–2044.
At the end of R.B.’s time in Florida, he was making
very good progress with toileting. ROA.2671. He was
“independently pulling down his own pants, sitting up
on the potty, going to the bathroom, [and] washing his
hands[.]” Id. He wore underwear most of the time at the
time he moved to Texas. Id.
After receiving R.B.’s educational transfer paperwork
from R.B.’s parents, Raquel Davila, the special education
PPCD teacher at Langley Elementary, telephoned Holland
Elementary in Florida to inquire as to the nature of R.B.’s
placement and services in the ESE classroom. ROA.3237,
3248–3252. 2 Ms. Davila failed to ask questions regarding
the length of R.B.’s instructional day in Florida and as to
the structure of the ESE program. ROA.3302–3303.
1. ESE apparently stands for “exceptional student classroom[.]”
ROA.3250.
2. PPCD apparently means “Preschool Program For Children
with Disabilities”. See ROA.2583–2584.

5
On January 13, 2016, NISD’s Admission, Review
and Dismissal (ARD) committee convened to develop
“comparable services” for R.B. in light of his transfer
from out of state. ROA.1164–1169. 3 R.B.’s parent had
informed the ARD committee that R.B. attended school
with typically-functioning peers in a full-day program in
Florida. ROA.3253–3254. Nevertheless, the ARD placed
R.B. in a self-contained half-day PPCD program, for
three hours daily, with OT and speech. ROA.1166–1167.
NISD staff would testify that a full-day PPCD program
was available. ROA.2389, 3255–3256.
Subsequently, NISD conducted a re-evaluation
review of R.B. ROA.1170. On February 22, 2016, the ARD
committee convened to develop a permanent program
for R.B. ROA.1189. The committee found that Autism was
R.B.’s primary disability, with a secondary disability of
Speech Impairment. ROA.1190. It recommended a behavior
intervention plan (BIP) to address struggles with waiting
his turn, hitting, spitting, and throwing class furniture.
ROA.1192, 1197. While the committee acknowledged that
R.B. has communication needs, it declined to recommend
assistive technology to address those needs. ROA.1193,
1197. From January 13 through February 22, R.B.
received four fewer hours daily than the Florida IEP
mandated, thus losing 84 hours of instructional time.
The ARD placed R.B. permanently in a “collaborative”
PPCD class, three hours daily, for the remainder of
the 2015/16 school year and for the 2016/17 school year.
ROA.1202. He would attend Langley Elementary School.
3. The ARD committee is the Texas nomenclature for the IEP
Team.

6
ROA.1189 et seq. The annual goals in the IEP address
attempting to communicate by verbalizing or exchanging
pictures or objects, keeping hands and feet to himself, and
communicating wants and needs via words with use of a
visual, with no spitting. ROA.1194–1196.
From February 16, 2016, until May 16, 2016, thirtyminute Weekly Interval Data collected by NISD revealed
an overall and continuing decline in R.B.’s behaviors.
ROA.1325–1344; 2132–2136. When a behavior occurred,
“Y” was circled and adjacent tally marks indicated the
number of occurrences during the thirty-minute interval.
ROA.1325–1344. Staff would record when R.B. exhibited a
negative behavior but failed to record the number of times
the behavior occurred within the thirty-minute interval.
Id. The true number of negative occurrences was not
fully represented in the data collection. ROA.1325–1344;
2132–2136. In addition, the thirty-minute Weekly Interval
Data sheets are missing several days of data for instances of
spitting, throwing, and hitting behaviors. ROA.1325–1341.
R.B.’s behaviors of spitting, hitting, throw ing
furniture, and screaming did not decrease at Langley
Elementary. ROA.2137–2153. R.B. was no longer using
the digital pronate position and was not making object,
measurable progress in handwriting or fine motor skills.
ROA.1175–1177.
As early as February 8, 2016, R.B. began having
toileting accidents. ROA.2066–2067. Data collection sheets
from Langley Elementary revealed that R.B. exhibited
increased need for prompting during toileting activities
which coincided with increased occurrences of toileting
accidents. Id. Ms. Davila testified that she remembered

7
when R.B. soiled his pants and recalled asking his parents
to send diapers to school. ROA.2076 (came to school with
poop in his pull-ups); 3283 (“a couple of times that he
pooped in his pants”). R.B.’s parent had to begin sending
diapers to school as R.B. soiled his pants on numerous
occasions. ROA.3327, 2856– 2857. Although NISD’s data
collection revealed regression, NISD insisted that R.B.
showed no regression. ROA.1189–1225.
On January 11, 2017, R.B.’s parents filed a request for
a special education due process hearing with the Texas
Education Agency (TEA). ROA.459. The request alleged
a denial of a free appropriate public education (FAPE),
commencing in January 2016 when R.B. transferred to
NISD, and continuing through the 2016/17 school year.
ROA.462. Specifically, the parent alleged, inter alia, that
NISD failed to timely and fully implement comparable
services based on the Florida IEP, failed to provide FAPE
in the least restrictive environment, that R.B. stagnated
or regressed in his programs both at Langley and Boldt,
that the IEPs were not reasonably calculated to provide
educational benefit, that NISD engaged in procedural
violations of the Individuals with Disabilities Education
Act (IDEA), that NISD failed to provide staff trained
in peer-reviewed, research-based methodologies such
as ABA. ROA.462–464. The parents requested various
relief, including reimbursement for costs incurred relating
to ABA, OT and speech services obtained by the parent,
an order directing NISD to hire or contract with various
staff and provide ABA and assistive technology, and
compensatory services. ROA.464–465.
On January 26, 2017, the parents filed an amended
request for a special education due process hearing.

8
ROA.507. The amended request sought the following
relief:
1.

The NISD denied RB. with a Free Appropriate
Public Education during the spring semester of
the 2015-2016 school year, from January 2016
through completion of the 2015-2016 school year
and including summer 2016 (for lack of Extended
School Year services).

2.

The NISD denied and is continuing to deny R.B.
with a Free Appropriate Public Education during
the 2016-2017 school year, including summer 2017.

3.

The NISD’s Langley FIE [and] IEP did not
contain present levels of performance that
informed the goals and the goals lacked objective
baselines and specificity of measurement in order
to determine progress. As a result, it denied R.B.
a free appropriate public education in violation
of20 U.S.C. 1414(d).

4.

The NISD’s Boldt October 2016 ARDC/IEP does
not contain measurable goals, with objective
baselines, and specificity of measurement in order
to determine progress. This violates 20 U.S.C.
1414(d).

5.

The NISD’s October 2016 ARDC/IEP continues
to deny R.B. a Free Appropriate Public Education
for the 2016-2017 school year, including summer
2017.

9
6.

The NISD reimburse the Petitioner Parents for
any and all costs (i.e. transportation) related
to ABA services, speech and language services,
and occupational therapy services that they
have had to personally pay due to the NISD’s
failure to provide R.B. a Free Appropriate
Public Education, including materials and
transportation.

7.

The NISD hire or contract with a licensed BCBA,
RBT, OT, and licensed Speech and language to
work with NISD staff to provide direction and
guidance to R.B.’s ARDC and all school staff
to prepare an IEP for him that is designed to
meet his unique educational needs, and that his
IEP will provide: a) peer-reviewed researched
programs (i.e. ABA) provided by qualified
personnel such as an RBT; b) a means by which
the programs can be provided in a regular
education environment with differentiated
instruction and supplementary aids and supports
to help R.B. successfully learn academically
alongside his non-disabled peers; c) services to
ensure that R.B. is fully socially included with
his non-disabled peers; d) services to ensure that
R.B. is able to utilize assistive technology devices
and programs.

8.

The NISD pay for R.B. to receive compensatory
education services from a qualified private source
of the Petitioner Parents’ choice in an amount
equal to the deprivation of education he has
experienced.

10
9.

The NISD revise its district-w ide special
education plan to ensure the provision of ABA
based services to children with autism. If the
Hearing Officer believes he lacks jurisdiction
over this request, Petitioner Parents request an
order so stating.

10. The NISD revise its district-wide practices
for Extended School Year services to ensure
objective measurement of children’s progress
so as to determine the need for ESY services. If
the Hearing Officer believes he lacks jurisdiction
over this request, Petitioner Parents request an
order so stating.
ROA.521–522. A due process hearing was held over three
days from August 7th to 9th, 2017. RE.17. On October 4,
2017, in a written decision, the Special Education Hearing
Officer (“SEHO”) concluded that NISD had provided R.B.
with the requisite comparable services upon his transfer
to NISD from a Florida public school, and that NISD had
provided R.B. with a FAPE. ROA.411–450.
On November 3, 2017, plaintiff parent initiated an
action in the U.S. District Court for the Western District
of Texas, requesting judicial review. Docket No. 1, see
R.E. 4. On December 12, 2018, the district court issued a
memorandum and order, upholding the SEHO’s decision.
App. 4a. On January 7, 2019, plaintiff-appellant filed
a notice of appeal with the district court. R.E. 50. On
December 17, 2019, the court of appeals issued a summary
order, affirming the order of the district court. App. 1a.

11
REASONS TO GRANT PETITION
Petitioner requests certiorari only for the question of
whether IDEA’s mandate that a school district provide
“comparable services” allows the district to reduce the
daily services by 50%, and by placing the child in a
more restrictive setting with non-disabled peers, when
a child transfers to that school district from out of state.
Guidance from the U.S. Education Department defines
“comparable” as “similar” or “equivalent”.
The cour t of appeals found that “[u]nder his
Individualized Education Program (‘IEP’) at his previous
school, R.B. attended a full-day, ‘mixed’ classroom, which
is a special-education classroom containing both specialneeds and non-disabled students, and received speech and
occupational therapy each week” but that “[u]pon enrolling
at NISD, the district provided him a temporary service
plan[,] . . . plac[ing] R.B. in a half-day program in a selfcontained classroom—a classroom with only special-needs
students.” App. 2a. Nevertheless, the court of appeals
upheld a finding that this action did not violate the IDEA.
This issue is of great importance to military families,
who often are transferred to different states during the
school year. The Court should grant certiorari and find
that a half-day program, in a self-contained setting, is not
“similar” or “equivalent” to a full-day program in a mixed
setting, and remand for further proceedings to determine
appropriate relief.
On February 5, 2020, the Committee on Armed
Services: Subcommittee on Military Personnel held a
hearing entitled “Exceptional Family Member Program—

12
Are the Military Services Really Taking Care of Family
Members?” 166 Cong. Rec. D121-01, 166 Cong. Rec. D12101, D123. An article in the Military Times reported on the
hearing, stating that “there are more than 103,000 service
members with more than 139,000 family members in the
EFMP programs.”4 The article goes on to report:
Problems w ith inconsistency and lack of
advocacy have plagued military special needs
families for decades. Advocates testified about
families issues ranging from difficulty in getting
their health care providers and support system
in place after a permanent change of station
move; being transferred to locations without
adequate medical and educational resources to
meet their needs, and perceptions surrounding
EFMP, and the [sic] whether it could negatively
affect a service member’s career. While EFMP
is effective at some installations, it varies widely.
The DoD Military Family Readiness Council
has discussed the issue for years, and recommended improvements and standardization in
the EFMP.
Of course, many of the family members in the EFMP
programs are eligible for services under the IDEA. 32
C.F.R. § 75.5(b) (“Family members of active duty Service
members (regardless of location) and civilian employees
appointed to an overseas location eligible for enrollment
in a DoD EA school on a space-required basis will be
4. https://www.militarytimes.com/pay-benefits/2020/02/06/
lawmakers-vow-to-fix-dod-special-needs-program-for-militaryfamilies/

13
identified as having special educational needs if they
have, or are found eligible for, either an IFSP or an IEP
under 32 CFR part 57.”) Military families with IDEAeligible children are facing challenges not only within the
EFMP program, but in obtaining services from school
districts under the IDEA. In this case, a military family
transferred from Florida to Texas saw a child’s daily
services cut in half despite a clear mandate that the Texas
school district provide “similar” or “equivalent” services
to children with special needs transferring from out of
state. While case law on this issue is scant, the Court
should grant certiorari clarifying the meaning of “similar”
or “equivalent,” as this issue affects thousands of children
of military personnel.
I.

THE IDEA

The Individuals with Disabilities Education Act
(IDEA) requires that school districts in states receiving
federal funds implement procedures and policies that
assure that each disabled student receives a “free
appropriate public education,” or “FAPE.” See 20 U.S.C.
§§ 1400(d)(1)(A), 1412(a), 1415(a); Daniel R.R. v. State Bd.
of Educ., 874 F.2d 1036, 1044 (5th Cir. 1989). In order to
ensure that each student receives a FAPE, parents and
school districts collaborate to develop an individualized
education program (“IEP”) that is “reasonably calculated
to enable the child to receive educational benefits.” 20
U.S.C. § 1400(d)(1)(A); R.H. v. Plano Indep. School Dist.,
607 F.3d 1003, 1008 (5th Cir. 2010); J.H. ex rel. A.H. v. Fort
Bend Indep. Sch. Dist., 482 F. App’x 915, 917–18 (5th Cir.
2012). The purpose of the IDEA is “(a) [t]o ensure that
all children with disabilities have available to them a free
appropriate public education that emphasizes special

14
education and related services designed to meet their
unique needs and prepare them for further education,
employment, and independent living; (b) [t]o ensure that
the rights of children with disabilities and their parents
are protected; (c) [t]o assist States, localities, educational
service agencies, and Federal agencies to provide for the
education of all children with disabilities; and (d) [t]o assess
and ensure the effectiveness of efforts to educate children
with disabilities.” 34 C.F.R. § 300.1.
The “review of the adequacy of an IEP is limited to
two basic questions: (1) Did the school district comply
with the procedural requirements of the IDEA?; and (2)
Is the IEP reasonably calculated to enable the student to
receive educational benefits?” Board of Educ. v. Rowley,
458 U.S. 176, 206–207 (1982). Under Rowley, the IDEA
“generates no additional requirement that the services
so provided be sufficient to maximize each child’s
potential[,]” providing, at the federal level, for a “basic
floor of opportunity” consisting of “access to specialized
instruction and related services which are individually
designed to provide educational benefit to the handicapped
child.” Id. at 198, 201.
To meet its substantive obligation under the IDEA, a
school must offer an individual education program (IEP)
reasonably calculated to enable a child to make progress
appropriate in light of the child’s circumstances. Endrew
F. v. Douglas Cty. Sch. Dist. RE-1, 137 S. Ct. 988, 1000
(2017). A school district must “be able to offer a cogent and
responsive explanation for their decisions that shows the
IEP is reasonably calculated to enable the child to make
progress appropriate in light of his circumstances.” Id.,
137 S. Ct. at 1002. This program must be provided in the
“least restrictive environment,” namely:

15
To the maximum extent appropriate, children
with disabilities, including children in public or
private institutions or other care facilities, are
educated with children who are not disabled,
and special classes, separate schooling, or other
removal of children with disabilities from the
regular educational environment occurs only
when the nature or severity of the disability of
a child is such that education in regular classes
with the use of supplementary aids and services
cannot be achieved satisfactorily.
20 U.S.C. § 1412(a)(5)(A).
II. THE DISTRICT COURT CORRECTLY FOUND
THAT THE SERVICES WERE REDUCED BY A
HALF DAY AND NISD PLACED THE STUDENT
IN A MORE RESTRICTIVE SETTING, BUT
LEGALLY ERRED IN FINDING THAT NISD
PROVIDED COMPARABLE SERVICES
“If a child with a disability who had an IEP that was
in effect in a previous public agency in another state
transfers to a public agency in a new state, and enrolls in
a new school within the same school year, the new public
agency, in consultation with the parents, must provide
the child with FAPE (including services comparable
to those described in the child’s IEP from the previous
public agency), until the new public agency: 1) conducts an
evaluation if determined to be necessary by the new public
agency; and 2) develops, adopts, and implements a new IEP
if appropriate.” 34 C.F.R. § 300.323(f) (emphasis added); 20
U.S.C. § 1414(d)(2)(C)(i)(II); see Questions and Answers
on Individualized Educ. Programs (IEPs), Evaluations,

16
and Reevaluations, 111 LRP 63322 (OSERS 09/01/11);
Letter to Sims, 103 LRP 22737 (OSEP 10/09/02).
In addition to the IDEA, the Interstate Compact on
Educational Opportunity for Military Children (MIC3), in
which Texas is a member, exists to strengthen transitions
and close educational gaps as military families and their
children move to a new school district in another state. As
such, NISD was required to initially provide comparable
services to Student based on current Individualized
Education Program (IEP). Tex. Educ. Code § 162.002.
While “comparable” services do not need to be identical,
they must be reasonably comparable. The U.S. Education
Department has interpreted comparable to mean “similar”
or “equivalent.” 71 Fed. Reg. 46,681 (2006).
Under both the IDEA and the MIC3, if the new
district disagrees with the evaluation or the IEP from the
prior district, it must comply with the IDEA regulations
concerning evaluations and IEP meetings, including all
pertinent timelines. Id.; 34 C.F.R. § 300.323(f). Upon
determining that R.B. required evaluations after his
enrollment at Langley, NISD had thirty days to complete a
Full Individual and Initial Evaluation (FIIE). Tex. Admin.
Code § 89.1050(G)(2). NISD was thus required to provide
comparable services until it conducted the FIIE, which
it wholly failed to do. See Falcon Sch. Dist. 49, 116 LRP
16253 (SEA CO 02/19/16).
Nevertheless, the district court, as affirmed by the
court of appeals, erroneously concluded that the services
provided—the half-day PPCD placement—constituted
“comparable services” under IDEA. RE.22–26. R.B.
enrolled in NISD in January 2016; on the same day,

17
without a cogent or responsive reason or any evaluation,
NISD unilaterally changed Student’s least restrictive
environment (LRE) from a full day of instruction in
an inclusion setting with access to non-disabled peers
to a half-day self-contained classroom with zero access
to non-disabled peers. ROA.2049; 2029–2050. Without
formally evaluating Student, NISD additionally removed
or reduced many of Student’s related services including:
1) reducing direct speech services from 2160 minutes per
academic year to a mere 1190 minutes per academic year;
and 2) replacing 1080 minutes of direct OT services with
a mere 80 minutes of “integrated” OT. ROA.2851, 2854,
2845. 1170–1188; 1226–1274. This change of placement and
reduction in services cannot be said to be comparable in
any sense of the term, denying R.B. a FAPE.
R.B.’s parent had informed the ARD committee that
R.B. attended school with typically- functioning peers in
a full-day program in Florida. ROA.3253–3254. PPCD
teacher Davila failed to inquire to the Florida district
regarding the length of R.B.’s instructional day in Florida
and as to the structure of the ESE program. ROA.3302–
3303. NISD staff would testify that a full-day PPCD
program was available. ROA.2389, 3255–3256.
In concluding that the half-day self-contained
program was “comparable,” the district court stated that
“R.B.’s Florida IEP did not specify the number of hours
of instruction that R.B. was receiving.” RE.23. It then
further reasoned: “That R.B.’s mother informed NISD
that R.B. attended a full-day program in Florida is still not
dispositive—while it is true that NISD could have inquired
with the Florida school regarding the number of hours
of instruction R.B. received, comparable services are not

18
identical services or the same services.” RE.25. In the
end, the district court, as affirmed by the court of appeals,
concluded, erroneously, that half the amount of services
are “equivalent” or “similar”, and that placement in a
restrictive self-contained class is similarly “equivalent”
to an inclusion program. RE.26.
Additionally, the placement of R.B. in a self-contained
setting, rather than the mixed setting mandated by the
Florida IEP, increases the restrictiveness of the setting.
See 20 U.S.C. § 1412(a)(5)(A) (defining least restrictive
environment). A more restrictive setting should not be
deemed “similar” or “equivalent” to a less restrictive
setting. See generally Honig v. Doe, 484 U.S. 305, 321
(1988) (importance of LRE requirement).
Finally, the district court confused the FAPE
requirement (“IDEA does not require a school district to
provide the best available or optimal educational setting”)
with the comparable services requirement (similar or
equivalent services to previous IEP). RE.26. Here, the
district court assumed without evidence that Florida was
somehow providing an “optimal” setting, by providing R.B.
with a full day of services. Nothing in the record supports
this conclusion.
III. THE COURTS SHOULD HAVE DIRECTED
APPROPRIATE RELIEF
Compensatory educational services are designed
to make up for the services a child has lost. Miener
v. Missouri, 800 F.2d 749, 753 (8th Cir. 1986); C.C. v.
Beaumont Indep. Sch. Dist., 65 IDELR 109 (E.D. Tex.
2015) (upholding majority of compensatory education

19
award); Caldwell Indep. Sch. Dist., 111 LRP 56462 (TEA
2011) (awarding in excess of one year of compensatory
education and noting its equitable nature), upheld
by Caldwell Independent School District v. L.P., 994
F.Supp.2d 811, aff’d., 62 IDELR 192 (5th Cir. 2013). As
discussed above, NISD denied R.B. a FAPE from January
2016 through late February 2016, so the district court, and
the court of appeals, should have awarded compensatory
education. The Court should remand for a determination
of appropriate relief.
CONCLUSION
Based on the foregoing, petitioners respectfully
request that the Court grant certiorari to the United
States Court of Appeals for the Fifth Circuit and entertain
the merits of this case.
Dated: Auburn, New York
March 16, 2020
Respectfully submitted,
A ndrew K. Cuddy, Esq.
Counsel of Record
Cuddy Law Firm, P.L.L.C.
5693 South Street Road
Auburn, New York 13021
(315) 370-4020
acuddy@cuddylawfirm.com
Attorneys for Petitioners

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE FIFTH
CIRCUIT, FILED DECEMBER 17, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-50012
MICHAEL BRUNO, AS PARENTS/GUARDIANS/
NEXT FRIEND OF R.B., A MINOR; R.B.,
INDIVIDUALLY, A MINOR; BRITTANY BRUNO,
AS PARENTS/GUARDIANS/NEXT FRIEND OF
R.B., A MINOR,
Plaintiffs-Appellants
v.
NORTHSIDE INDEPENDENT SCHOOL DISTRICT,
Defendant-Appellee
December 17, 2019, Filed
Appeal from the United States District Court for the
Western District of Texas. USDC No. 5:17-CV-1129.
Before STEWART, CLEMENT, and HO, Circuit Judges.
PER CURIAM:**
R.B., a preschool student with autism and a speech
impairment, transferred from a Florida public school
* Pursuant to 5th Cir. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except under
the limited circumstances set forth in 5th Cir. R. 47.5.4.

2a
Appendix A
to Northside Independent School District (“NISD”)
in January 2016. Under his Individualized Education
Program (“IEP”) at his previous school, R.B. attended a
full-day, “mixed” classroom, which is a special-education
classroom containing both special-needs and nondisabled students, and received speech and occupational
therapy each week. He also received additional services
from a private Board Certified Behavior Analyst and
occupational therapist.
Upon enrolling at NISD, the district provided him
a temporary service plan designed to furnish R.B. with
special-needs services comparable to his Florida IEP as
required by the Individuals with Disabilities Education
Act, 20 U.S.C. §§ 1400, et seq. (“IDEA”). NISD placed R.B.
in a half-day program in a self-contained classroom—a
classroom with only special-needs students. His speechlanguage therapy services and occupational therapy
services remained the same as described in his Florida
IEP.
After this initial transfer period, NISD completed a
Full Individual and Initial Evaluation and developed a new
IEP for R.B. In completing the evaluation and developing
the new IEP, NISD consulted with R.B.’s parents and
teachers, reviewed R.B.’s tests and evaluations from his
Florida school district, and relied on evaluations from a
speech pathologist, occupational therapist, and licensed
specialist in school psychology. NISD determined that
R.B. should be provided with less speech and occupational
therapy than he had received in Florida and that his
classroom should be changed from a self-contained
classroom to a mixed classroom.

3a
Appendix A
On January 11, 2017, Michael and Brittany Bruno,
R.B.’s parents, filed a request for a special education due
process hearing with the Texas Education Agency. They
alleged that NISD committed a substantive violation of the
IDEA by denying R.B. a free appropriate public education
(“FAPE”) and committed numerous procedural errors
under the IDEA. After a three-day evidentiary hearing,
which included testimony from fifteen witnesses and more
than 800 pages of exhibits, the special education officer
concluded that NISD provided R.B. with a FAPE and did
not commit procedural violations of the IDEA. The Brunos
appealed the hearing officer’s decision to the district court.
The district court granted judgment on the administrative
record to NISD, and the Brunos appealed to this court.
We have reviewed the briefs, the applicable law, and
relevant parts of the record, and we have heard oral
argument. The district court committed no reversible
error. The judgment is affirmed, essentially on the basis
carefully explained by the district court in its 41-page
December 12, 2018 Order.

4a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE WESTERN
DISTRICT OF TEXAS, SAN ANTONIO DIVISION,
FILED DECEMBER 12, 2018
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
NO. 5:17-CV-1129-DAE
MICHAEL BRUNO AND BRITTANY BRUNO, AS
PARENTS/GUARDIANS/NEXT FRIEND OF R.B.,
AND R.B., INDIVIDUALLY, A MINOR,
Plaintiff,
vs.
NORTHSIDE INDEPENDENT
SCHOOL DISTRICT,
Defendant.
December 12, 2018, Decided;
December 12, 2018, Filed
ORDER: (1) GRANTING NISD’S MOTION FOR
JUDGMENT ON ADMINISTRATIVE RECORD;
AND (2) DENYING PLAINTIFFS’ MOTION FOR
JUDGMENT ON THE RECORD
The matters before the Court are: (1) Defendant
Northside Independent School District’s (“NISD”) Motion

5a
Appendix B
for Judgment on the Administrative Record (Dkt. # 25);
and (2) Plaintiffs Michael and Brittany Bruno, as Parents/
Guardians/Next Friend of R.B., and R. B.’s Motion for
Judgment on the Record (Dkt. # 26.) Pursuant to Local
Rule CV-7(h), the Court finds these matters suitable for
disposition without a hearing. After careful consideration
of the motions and the administrative record in this case,
the Court finds that NISD’s motion should be GRANTED,
and Plaintiffs’ motion should be DENIED.
FACTUAL BACKGROUND
Plaintiff R.B. is a student with autism and a speech
impairment. (Dkt. # 1 at 2.) At the time of the parties’
briefing on the instant matters, R.B. was a six-year old
child attending Boldt Elementary at NISD. (Dkt. # 25-1
at 3.) At all relevant times, R.B. lived with his parents in
San Antonio, Texas, and NISD was the resident school
district for R.B., which was responsible for providing him
a free appropriate public education (“FAPE”)1 under the
Individuals with Disabilities Education Act (“IDEA”), 20
U.S.C. §§ 1400 et seq.
A. 2015-2016 School Year
Plaintiffs are a military family who were transferred
from Florida to Texas in January 2016. (Dkt. # 1 at 2; Dkt.
# 6-15 at 45.) Prior to the transfer, R.B. was four years
old and attended Holland Elementary, a public school in
1. The Court repeats some of the full phrases and corresponding
acronyms throughout this opinion for the reader’s ease.

6a
Appendix B
Florida, where he was provided a full-day of school in the
Exceptional Student classroom (“ESE”), a self-contained
classroom for students eligible for special education
services. (Dkt. # 6-9 at 13; Dkt. # 6-15 at 47; Dkt. # 6-16a
at 64.) R.B. received private Applied Behavior Analysis
(“ABA”)2 training from a privately hired Board Certified
Behavior Analyst (“BCBA”), who was permitted to visit
the school campus and make recommendations for R.B.’s
teacher with regard to behavioral strategies to use with
R.B. (Dkt. # 6-14 at 98, 321.) The BCBA was not paid by
the Florida school district, nor asked to provide teacher
training. (Id.) R.B. also received occupational therapy
(“OT”). (Id. at 277-78.) R.B.’s OT included the use of a
weighted vest and a weighted lap pad, as well as assistive
technology like the use of an iPad for communication.
(Id.) R.B.’s occupational therapist in Florida was not paid
by the school district and she was never employed as an
occupational therapist in a public-school setting. (Id. at 291.)
Upon their transfer to San Antonio, Plaintiffs enrolled
R.B. at Langley Elementary in NISD. (Dkt. # 25-1 at 5.)
On January 13, 2016, a Temporary Placement meeting
was held with R.B.’s mother, the Preschool Program for
Children with Disabilities (“PPCD”) teacher, and the
vice-principal at Langley Elementary. (Dkt. # 6-7 at 6;
Dkt. # 6-15 at 94; Dkt. 6-16 at 67.) A Reevaluation Review
also took place on the same day, wherein school district
staff reviewed a Florida evaluation report dated July 7,
2014, and consulted with R.B.’s mother. (Dkt. # 6-7 at
2. “ABA uses scientifically evidence-based treatments to
change socially significant behaviors.” (Dkt. # 6-14 at 97.)

7a
Appendix B
12.) The Reevaluation Review concluded that additional
evaluation was needed with regard to R.B.’s language
and communication, OT, and his emotional/behavior/
intellectual and educational performance. (Id.) The
Reevaluation Review’s purpose, according to NISD, was
to confirm a set of services for R.B. on a 30-day temporary
basis until an Admission, Review, and Dismissal (“ARD”)
meeting3 could be held. (Id.; Dkt. # 6-15 at 96-97.)
During the 30-day period, the PPCD teacher proposed
that R.B. be placed in a half-day, self-contained PPCD in
the afternoon at Langley Elementary. (Dkt. # 6-15 at 96.)
The PPCD teacher understood that this was comparable
to R.B.’s classroom in Florida. (Dkt. # 6-16 at 68, 71.) The
PPCD teacher explained that NISD did have a full-day,
or full continuum program, but only if there was a need
for it. (Id. at 68.) R.B.’s mother, however, questioned his
placement in the half-day class, but ultimately agreed
to the placement as it was her understanding a full-day
program was not available. (Id. at 71-72.) R.B.’s mother
frequently conferred with the PPCD teacher during the
30-day period. (Id. at 75.)
On January 22, 2016, another Reevaluation Review
meeting was held. At this meeting, R.B.’s mother attended
along with the PPCD teacher, a licensed specialist
in school psychology (“LSSP”), a speech/language
pathologist intern, the Vice-Principal, a general education
teacher, and the occupational therapist. (Dkt. # 6-4 at 12.)
3. An ARD meeting is a meeting of parents and educators to
discuss and develop an individualized educational program (“IEP”)
for a special needs student. (Dkt. # 1 at 3.)

8a
Appendix B
At the conclusion of that meeting, the team agreed that
an updated evaluation should be completed by February
23, 2016. (Id.)
On February 22, 2016, NISD completed a Full
Individual Evaluation (“FIE”), confirming that R.B.
continued to meet the eligibility requirements for special
education and related services as a student with autism
and a speech impairment. (Dkt. # 6-15 at 102.) The same
day, a permanent placement ARD meeting was held.
(Id.; Dkt. # 6-16 at 76-77.) At the meeting, R.B.’s FIE
was reviewed, confirming his need for continued speech/
language therapy. (Dkt. # 6-15 at 102.) Regarding R.B.’s
academic and functional skills, R.B.’s functional behavior
assessment (“FBA”) 4 was reviewed; it was determined
that R.B. demonstrated age appropriate skills in reading,
writing, math, science, and social studies. (Id.)
To address R.B.’s behavioral, social and emotional
needs, the PPCD teacher proposed a Behavior Intervention
Plan (“BIP”). (Dkt. # 6-7 at 54, 100; Dkt. # 6-16 at 81, 82.)
It was noted that R.B. had disruptive classroom behaviors,
including spitting and physical aggression. (Dkt. # 6-7 at
54, 100; Dkt. # 6-16 at 81, 82.) The BIP included a set of
targeted behaviors, classroom strategies, use of a positive
reward system, a set of consequences to improve behavior,
and social skills training. (Dkt. # 6-7 at 54, 100.)
T he Febr u a r y 2 2 , 2 016 A R D develop e d a n
individualized educational program (“IEP”) for R.B.
4. An FBA is a component of the FIE. (Dkt. # 6-4 at 13.)

9a
Appendix B
that covered the time period from February 22, 2016,
through February 21, 2017. (Dkt. # 6-7 at 67.) The IEP
was based on R.B.’s FIE, present levels of achievement
and functional performance (“PLAAFPs”), and outside
reports. (Id.; Dkt. # 6-15 at 204.) Subsequently, the
PPCD teacher recommended that R.B. attend a half-day
morning, inclusive PPCD/Early Childhood Collaborative
classroom (“ECC”)5 at Langley Elementary; the ARD
agreed to this change. (Id.) The IEP concerned R.B.’s
placement and course schedule for the remainder of the
2015-2016 school year, through February of the 2016-2017
school year. (Id.) The IEP also included integrative OT
services to R.B. even though NISD’s OT evaluation did
not recommend this service. (Id.) According to the PPCD
teacher, R.B.’s mother was in agreement with the IEP.
(Dkt. # 6-16 at 88.)
In April 2016, a meeting with R.B.’s mother, the
PPCD teacher, the Vice-Principal, and the counselor
took place to discuss parental concerns over R.B.’s use
of inappropriate language. (Dkt. # 6-15 at 106,109; Dkt.
# 6-16 at 94-95.) In May 2016, the Special Education
Area Coordinator (“the Coordinator”) with supervisory
responsibility over Langley Elementary met with R.B.’s
mother to continue to discuss parental concerns. (Dkt.
# 6-14 at 40.) Parental concerns included R.B.’s use of a
toilet, schedule, communication with the school, and how
5. The PPCD/ECC classroom is structured by combining a
pre-K classroom with a PPCD classroom. For instance, half of the
students with special needs spend time in a pre-K classroom, and
half of the pre-K students spend time in the PPCD classroom. (Dkt.
# 6-14 at 65, 74.)

10a
Appendix B
R.B.’s behavior was being addressed at school. (Id. at
42-43.) In meeting with the Coordinator, R.B.’s mother
inquired into the possibility of allowing R.B.’s private
BCBA therapist to visit the campus as was allowed at his
Florida school. (Id. at 44, 53; Dkt. # 6-15 at 51) Because
there were difficulties getting the BCBA background
check and credential properly submitted, the BCBA never
visited the school as requested. (Dkt. # 6-14 at 45; Dkt.
# 6-15 at 118; Dkt. # 6-16 at 102.) R.B.’s mother did not
inquire into the possibility after that initial request. (Dkt.
# 6-15 at 51.)
Subsequent to the meeting with the Coordinator,
NISD agreed to R.B.’s mother’s request for an independent
educational evaluation (“IEE”).6 (Dkt. # 6-14 at 184-85.)
An independent LSSP/psychologist (the “IEE examiner”)
reviewed NISD’s IEP and agreed with the conclusions
that R.B. met eligibility criteria as a student with autism
and a speech impairment. (Id.) While R.B.’s math skills
fell within the average range, his reading skills were
above expectations for his age and grade level. (Id. at
195.) The IEE examiner found that R.B. was one of the
higher performing readers in the PPCD/ECC class. (Id.)
The IEE examiner recommended intensive ABA therapy,
social skills training, speech therapy and behaviorbased language skills training, counseling services, OT,7
6. Although the parties refer in the administrative record to the
IEE as having been completed in 2016, the record reflects that the
report was not completed until June 2017. (See Dkt. # 6-9 at 100-12.)
7. In March 2016, R.B. began receiving private OT services,
which addressed different goals than the school-based OT services

11a
Appendix B
warnings about changes in routine or transitions, planning
and organizing tasks, and limiting attention to negative
behaviors, among others. (Id.)
Also in response to R.B.’s mother’s concerns, an
NISD support specialist 8 conducted an observation and
behavioral consultation, observing R.B. in the classroom
at Langley Elementary from May 18-20, 2016. (Dkt. # 6-14
at 58-59, 192; Dkt. # 6-16 at 19.) The support specialist
observed R.B. appropriately engaged in the educational
activities of the classroom, including using words and a
visual to express his need to use the restroom, was easily
redirected with the use of visual or verbal prompts when
needed, and used appropriate coping strategies when
overstimulated. (Dkt. # 6-14 at 58-59.) The support
specialist thereafter recommended that the PPCD teacher
continue with the strategies currently in place. (Dkt. #
6-16 at 22.) R.B.’s mother was allowed to observe R.B. in
the company of the support specialist, facilitated by the
Coordinator. (Dkt. # 6-14 at 56-57; Dkt. # 6-15 at 70; Dkt.
# 6-16 at 102.) R.B.’s mother reported to the Coordinator
that R.B. was doing better by the end of the school year.
(Dkt. # 6-14 at 58.) The PPCD teacher also observed that
R.B. had made significant improvements. (Dkt. # 6-16 at
91-92.)
that R.B. received. Private, or clinical-based, OT services focus on
a client’s independence performing daily tasks, whereas school OT
services focus on a student’s IEP goals. (Dkt. # 6-14 at 295-96; Dkt.
# 6-15 at 19.)

8. A support specialist is assigned to a set of campuses and
available to make campus visits to assist with instructional and
behavioral strategies, suggestions, and classroom management.
(Dkt. # 6-4 at 18.)

12a
Appendix B
B. 2016-2017 School Year
R.B. began the 2016-2017 school year at Langley
Elementary. (Dkt. # 6-14 at 76.) After the school year
began, R.B.’s mother continued to have concerns about
R.B.’s placement. (Id. at 66.) Specifically, she was
concerned about R.B.’s progress in toileting skills, as
well as his safety after she observed bruises and marks
on R.B.’s body. (Id. at 66-68.) R.B.’s mother thereafter
made a report to Children’s Protective Services (“CPS”)
who investigated her complaints. (Dkt. # 6-16 at 10809.) At the conclusion of its investigation, CPS did not
make any findings against the PPCD teacher or NISD.
(Id.) Thereafter, R.B.’s mother conferred with the
NISD Coordinator, who referred her to NISD’s central
administration. (Id. at 68.)
R.B.’s mother met with NISD’s Director of Elementary
Administration (the “Director”). (Dkt. # 6-4 at 21.) At R.B.’s
mother’s refusal to send R.B. to Langley Elementary, the
Director suggested that R.B. transfer to Boldt Elementary
to resolve her concerns. (Id.) R.B. began attending Boldt
Elementary in September 2016 in a PPCD/ECC program
like he attended at Langley Elementary. (Dkt. #6-14 at
220.) R.B. attended a half-day morning class staffed by a
special education teacher and an early childhood teacher
and two instructional assistants (“IA”). (Id.) At Boldt
Elementary, R.B.’s prior IEP from February 2016 was
implemented and R.B. received school-based OT services
as well as speech therapy sessions. (Id. at 225.)
On October 25, 2016, another ARD meeting was
convened at which another IEP was developed. (Dkt. #

13a
Appendix B
6-14 at 107; Dkt. # 6-15 at 37.) At the ARD meeting, R.B.’s
mother brought two private BCBAs, a private OT, and
a private speech pathologist, who all gave input into the
development of the PLAAFPs and the IEP. (Dkt. # 6-14
at 107; Dkt. # 6-15 at 37.) R.B.’s PPCD teacher also gave
input into the PLAAFPs and the IEP. (Dkt. # 6-14 at 115.)
PROCEDURAL BACKGROUND
On January 11, 2017, Plaintiffs filed a request for a
due process hearing with the Texas Education Agency
(“TEA”), alleging that NISD failed to provide R.B. with
a free appropriate public education (“FAPE”) under the
Individuals with Disabilities Education Act (“IDEA”), 20
U.S.C. § 1415(i)(3). (Id.) Specifically, Plaintiffs alleged that
NISD failed to provide R.B. with comparable services
when he transferred into the school district from a
public school district in Florida, and thereafter failed
to provide R.B. with FAPE. (Id.) A full evidentiary due
process hearing was held over three days from August
7-9, 2017. (See Dkt. # 6-4.) On October 4, 2017, in a written
decision, the Special Education Hearing Officer (“SEHO”)
concluded that NISD had provided R.B. with the requisite
comparable services upon his transfer to NISD from a
Florida public school, and that NISD had provided R.B.
with a FAPE. (Id. at 39.)
On November 3, 2017, Plaintiffs filed the instant
lawsuit in this Court, appealing the SEHO’s decision.
(Dkt. # 1.) On August 13, 2018, NISD filed a motion for
judgment on the administrative record. (Dkt. # 25.) On
August 27, 2018, Plaintiffs filed a response in opposition
(Dkt. # 27); NISD filed a reply on September 4, 2018

14a
Appendix B
(Dkt. # 30). On August 13, 2018, Plaintiffs filed their own
motion for judgment on the record. (Dkt. # 26.) On August
27, 2018, NISD filed a response in opposition (Dkt. # 28);
Plaintiffs filed a reply on September 4, 2018 (Dkt. # 29).
LEGAL STANDARD
This case arises under the Individuals with Disabilities
Education Act (“IDEA”), 20 U.S.C. §§ 1400-482. The
IDEA’s purpose is “to ensure that all children with
disabilities have available to them a free appropriate public
education that emphasizes special education and related
services designed to meet their unique needs and prepare
them for further education, employment, and independent
living[.]” 20 U.S.C. § 1400(d)(1)(A).
States receiving federal assistance under the IDEA
must: (1) provide a “free appropriate public education”
(“FAPE”) to each disabled child within its boundaries, and
(2) ensure that such education is in the “least restrictive
environment” (“LRE”) possible. Cypress–Fairbanks
Indep. Sch. Dist. v. Michael F., 118 F.3d 245, 247 (5th
Cir. 1997); 20 U.S.C. § 1412(a)(1), (5). The FAPE provided
must be developed to each disabled child’s needs through
an “individual education program” (“IEP”). Michael F.,
118 F.3d at 247; see 20 U.S.C. § 1414(d). In Texas, the
committee responsible for preparing an IEP is known
as an Admissions, Review, and Dismissal (“ARD”)
committee. Michael F., 118 F.3d at 247.
“When a parent challenges the appropriateness of
an IEP, a reviewing Court’s inquiry is two-fold.” Hous.

15a
Appendix B
Indep. Sch. Dist. v. V.P., 582 F.3d 576, 583 (5th Cir.
2009). “The court must first ask whether the state has
complied with the procedural requirements of the IDEA,
and then determine whether the IEP developed through
such procedures was ‘reasonably calculated to enable
the child to receive educational benefits.’” Id. at 583-84
(citation omitted). “If the court finds that the state has not
provided an appropriate educational placement, the court
may require the school district to reimburse the child’s
parents for the costs of sending the child to an appropriate
private school or institution.” Id. at 584 (citations omitted).
“Reimbursement may be ordered only if it is shown ‘that
(1) an IEP calling for placement in a public school was
inappropriate under the IDEA, and (2) the private school
placement . . . was proper under the Act.’” Id. (citation
omitted).
The role of the judiciary under the IDEA is limited,
leaving the choice of educational policies and methods
in the hands of state and local school officials. White v.
Ascension Parish Sch. Bd., 343 F.3d 373, 377 (5th Cir.
2003) (citing Flour Bluff Indep. Sch. Dist. v. Katherine
M., 91 F.3d 689, 693 (5th Cir. 1996)). “Under the IDEA, a
federal district court’s review of a state hearing officer’s
decision is ‘virtually de novo.’” Adam J. v. Keller Indep.
Sch. Dist., 328 F.3d 804, 808 (5th Cir. 2003). “The district
court must receive the state administrative record and
must receive additional evidence at the request of either
party.” Id. The court must reach an independent decision
based on a preponderance of the evidence. Hous. Indep.
Sch. Dist. v. Bobby R., 200 F.3d 341, 347 (5th Cir. 2000);
Michael F., 118 F.3d at 252. However, this requirement

16a
Appendix B
“is by no means an invitation to the courts to substitute
their own notions of sound educational policy for those of
the school authorities which they review.” Bd. of Educ. of
the Hendrick Hudson Cent. Sch. Dist., Westchester Cty.
v. Rowley, 458 U.S. 176, 206, 102 S. Ct. 3034, 73 L. Ed.
2d 690 (1982). Instead, “due weight” is to be given to the
hearing officer’s decision. Id. Thus,
courts must be careful to avoid imposing
their view of preferable educational methods
upon the States. The primary responsibility
for formulating the education to be accorded
a handicapped child, and for choosing the
educational method most suitable to the child’s
needs, was left by the Act to the state and local
educational agencies in cooperation with the
parents or guardians of the child.
Id. at 207.
The party seeking relief under the IDEA bears the
burden of proof. Schaffer v. Weast, 546 U.S. 49, 62, 126
S. Ct. 528, 163 L. Ed. 2d 387 (2005). Specifically, “a party
attacking the appropriateness of an IEP established by a
local educational agency bears the burden of showing why
the IEP and the resulting placement were inappropriate
under the IDEA.” Michael F., 118 F.3d at 252.
ANALYSIS
NISD argues in its motion that it provided comparable
services to R.B., as required under IDEA, upon his

17a
Appendix B
transfer from a Florida public school district, and that it
provided R.B. with a free appropriate public education
pursuant to IDEA. (Dkt. # 25 at 9, 13.) NISD contends
also that it did not violate Plaintiffs’ procedural rights
under the IDEA. (Id. at 19.)
Plaintiffs, on the other hand, argue that: (1) NISD’s
procedural violations denied R.B. a free appropriate public
education (Dkt. # 26 at 8); (2) the SEHO erroneously
found the IEE’s recommendations were implemented (id.
at 10); (3) NISD failed to provide comparable services
under the IDEA, which denied R.B. a free appropriate
public education (id. at 13); (4) NISD failed to conduct a
full individual and initial evaluation, denying R.B. a free
appropriate public education (id. at 15); (5) R.B.’s IEP was
not reasonably calculated based on his needs (id. at 16);
and (6) any academic and non-academic progress made
was de minimus, unsupported by the record, or attributed
to private services (id. at 21).
A. Comparable Services
The IDEA sets forth a school district’s obligations
to a student with an existing IEP who transfers from
another state within the same academic year. See 20
U.S.C. § 1414(d)(2)(C)(i)(II). “If a child with a disability
(who had an IEP that was in effect in a previous public
agency in another State) transfers to a public agency in
a new State, and enrolls in a new school within the same
school year,” the new school district must provide the
student with “services comparable to those described in
the child’s IEP from the previous public agency” until

18a
Appendix B
the school district conducts an evaluation, if the district
determines such an evaluation is necessary, and develops
a new IEP, if appropriate. 34 C.F.R. § 300.323(f); see also
19 Tex. Admin. Code § 89.1050 (j)(2). The Comments to
the Department of Education’s 2006 regulations state that
the prior evaluation of a child who transfers to a school
in another state is considered an initial evaluation made
pursuant to 34 C.F.R. §§ 300.304 through 306. 71 Fed.
Reg. 46,682 (2006); see 34 C.F.R. § 300.301 (defining an
initial evaluation).
If the new school district determines that an evaluation
is necessary, the evaluation is considered a full individual
and initial evaluation and must be completed within the
timelines established by § 89.1011(c) and (e) of 19 Tex.
Admin. Code § 89.1050. The timeline for completing the
requirements is 30 calendar days from the date of the
completion of the evaluation report. Id. at § 89.1050(j)(2).
1.

N ISD H a l f- d ay P r og r a m a nd S p e e ch /
Occupational Therapy

Plaintiffs argue that NISD failed to provide R.B. with
the requisite comparable services upon R.B.’s transfer to
NISD from a Florida public school district. (Dkt. # 26 at
14.) Among others, Plaintiffs complain that NISD provided
R.B. with only a half-day of school rather than the full day
of instruction he received in Florida. (Id.) Plaintiffs also
complain that R.B. did not receive comparable services in
speech and occupational therapy at NISD. (Id.)
Upon review, the Court finds that R.B.’s Florida IEP
did not specify the number of hours of instruction that

19a
Appendix B
R.B. was receiving. (Dkt. # 6-11 at 148-57.) Instead, it
states only that R.B. attended school “every school day”
in a “self-contained classroom.” (Id. at 156.) The Florida
IEP also noted that R.B. received language therapy for 60
minutes weekly, and received OT for 30 minutes weekly.
(Id.) It also noted that R.B. was placed in a separate class,
which was “less than or equal to 40%” with non-disabled
children. (Id.)
Upon R.B.’s transfer to Langley Elementary in NISD,
during his 30-day evaluation period,9 NISD’s IEP provided
that R.B. would be provided “services comparable to the
services provided in his previous Florida IEP.” (Dkt. # 6-7
at 9.) Among others, it notes that R.B. “will participate in
a self-contained PPCD program 3 hours daily,” and that
the classroom would be staffed with a certified special
education teacher and special education instructional
assistant. (Id. at 8.) Additionally, R.B. would be provided
the same amount of OT (30 minutes per week) and speech
therapy (60 minutes a week) as he did in Florida. (Id.
at 9.) Regarding ABA therapy, R.B.’s Florida IEP does
not state whether ABA therapy was a part of the IEP;
instead, the testimony of his Florida ABA provider at the
administrative hearing indicated that she was a private
9. To determine whether NISD complied with § 300.323(f)’s
requirement that it provide comparable services to R.B’s Florida
IEP, the Court looks only to the temporary 30-day placement
following his transfer. (See Dkt. # 6-7 at 6-11.) Any complaints
regarding R.B.’s February 22, 2016 IEP, made subsequent to the
30-day temporary placement, is not proper to challenge under
§ 300.323(f), which addresses only the 30-day period subsequent
to the transfer. Thus, any argument by Plaintiffs that NISD was
required to provide comparable services beyond the 30-day period
is without merit.

20a
Appendix B
provider who was allowed on campus to make visits to
observe R.B. (Dkt. # 6-14 at 321, 330-31.) Thus, contrary
to Plaintiffs’ contention, the Florida public school did
not provide him ABA therapy outside of allowing R.B.’s
private ABA therapist to come into the school for therapy.
Additionally, while it is true that R.B. did not receive
the same number of hours of instruction as he did in
Florida, this fact does not render the services he received
at NISD non-comparable. As discussed, R.B.’s Florida
IEP never mentioned the number of hours of instruction
he received daily. That R.B.’s mother informed NISD
that R.B. attended a full-day program in Florida is still
not dispositive—while it is true that NISD could have
inquired with the Florida school regarding the number of
hours of instruction R.B. received, comparable services are
not identical services or the same services. See Sterling
A. ex rel. Andrews v. Washoe Cty. Sch. Dist., 2008 U.S.
Dist. LEXIS 94222, 2008 WL 4865570, at *5 (“When a
child transfers to a new public agency from another state,
‘comparable services means services that are “similar” or
“equivalent” to those that were described in the child’s
IEP from the previous public agency, as determined by
the child’s newly-designated IEP Team in the new public
agency.’” (citing 71 Fed. Reg. 46540, 46681 (Aug. 14, 2006))).
“Comparable” services within the meaning of 20 U.S.C.
§ 1414(d)(2)(C)(i)(II) means that, in the interim IEP, NISD
needed to provide services to R.B. that were “similar”
or “equivalent” to those provided for in the Florida IEP.
NISD was not obligated to adopt the Florida IEP in its
exact form; all that the IDEA requires is that the interim
IEP be similar or equivalent to the Florida IEP.

21a
Appendix B
Based on the parties’ arguments and evidence, as well
as the administrative record in this case, the Court finds
that a preponderance of the evidence supports the SEHO’s
conclusion that R.B. was provided comparable services to
his Florida IEP during the 30-day temporary placement
period upon his transfer to NISD. The Court notes that
the IDEA does not require a school district to provide the
best available or optimal educational setting. Union Sch.
Dist. v. Smith, 15 F.3d 1519, 1524 (9th Cir. 1994) (citations
and internal quotations omitted). Instead, it requires the
school district to provide a “floor of opportunity” to give
educational benefits to the handicapped child. Id. Here,
the evidence indicates that while the exact number of
instructional hours differed, the substance and goals
of the services was the same. Thus, considering the: (1)
substantial similarity in the substance and goals of NISD’s
services during the 30-day temporary placement period,
and (2) the deference due to local and state officials’
educational policy determinations, the Court finds that
R.B. was provided services comparable to those provided
to him in the Florida IEP.
2.

Full Individual and Initial Evaluation

Plaintiffs also argue that NISD failed to conduct a
full individual and initial evaluation during the 30-day
temporary placement period following R.B.’s enrollment at
Langley Elementary. (Dkt. # 26 at 15.) Plaintiffs contend
that because NISD determined that R.B. required
additional evaluation upon his transfer to the District,
NISD was required to complete a transfer evaluation that
was sufficiently comprehensive to identify all the student’s

22a
Appendix B
special education and related service needs as if it were
an initial evaluation of the child. (Id.) Plaintiffs assert
that NISD’s Reevaluation Review of Existing Evaluation
Data (“REED”) relied mostly on his Florida IEP but did
not consider or conduct its own formal assessments. (Id.)
Regarding this, Plaintiffs complain that the SEHO failed
to make any findings on this issue. (Id.)
Pursuant to 34 C.F.R. § 300.304(b), in conducting an
evaluation of R.B. upon his transfer, NISD was required
to:
(1) Use a variety of assessment tools and
strategies to gather relevant functional,
developmental, and academic information
about the child, including information
provided by the parent, that may assist in
determining—
(i) Whether the child is a child with a
disability under § 300.8; and
(ii) The content of the child’s IEP,
including information related to
enabling the child to be involved
in and progress in the general
education curriculum (or for a
preschool child, to participate in
appropriate activities);
(2) Not use any single measure or assessment as
the sole criterion for determining whether

23a
Appendix B
a child is a child with a disability and for
determining an appropriate educational
program for the child; and
(3) Use technically sound instruments that
may assess the relative contribution of
cognitive and behavioral factors, in addition
to physical or developmental factors.
34 C.F.R. § 300.304(b).
Upon the Court’s own review, the Court finds
that NISD complied with § 300.304(b)’s requirements
controlling the conduct of an evaluation. The record
demonstrates that NISD’s REED of R.B. upon his
transfer to Langley Elementary used a variety of tools
and techniques to evaluate and assess R.B.’s disabilities.
(See Dkt. # 6-7 at 12-30.) NISD’s thorough 19-page
reevaluation report details its review of R.B.’s Florida
IEP and discusses the new assessments and parental
input taken upon his transfer to the District. (Id.) NISD’s
REED met the statute’s requirements and Plaintiffs have
not met their burden of demonstrating that NISD failed
to fully evaluate and assess R.B. upon his transfer.
B. Appropriateness of the IEP
Plaintiffs challenge the appropriateness of NISD’s
IEP. They argue that NISD committed procedural
violations which amount to a denial of a free and
appropriate public education. Plaintiffs also contend that
the SEHO erroneously concluded that NISD provided

24a
Appendix B
R.B. with an IEP that was reasonably calculated to enable
him to progress. (Dkt. # 26 at 16.)
To determine whether the IEP was appropriate,
the Court looks to whether (1) the state complied with
the procedural requirements of IDEA, and (2) the IEP
was reasonably calculated to enable the child to receive
educational benefits. Klein Indep. Sch. Dist. v. Hovem, 690
F.3d 390, 396 (5th Cir. 2012). Here, Plaintiffs challenge
both prongs of the analysis.
1.

Procedural Issues

Plaintiffs argue that NISD committed several
procedural violations which amounted to a denial of a
free and appropriate public education. (Dkt. # 26 at 7.)
Plaintiffs contend that NISD ignored parental concerns
during the IEP meetings, which resulted in the denial
of a FAPE. (Id.) Additionally, Plaintiffs complain that
the SEHO erroneously found that the Independent
Educational Evaluation (“IEE”) recommendations were
implemented by NISD. (Id. at 10.)
“In matters alleging a procedural violation, a
hearing officer may find that a child did not receive a
free appropriate public education only if the procedural
inadequacies—(I) impeded the child’s right to a free
appropriate public education; (II) significantly impeded the
parents’ opportunity to participate in the decisionmaking
process regarding the provision of a free appropriate public
education to the parents’ child; or (III) caused a deprivation
of educational benefits.” 20 U.S.C. § 1415(f)(3)(E)(iii).

25a
Appendix B
“Procedural defects alone do not constitute a violation
of the right to a FAPE unless they result in the loss of
an educational opportunity.” Adam J. ex rel. Robert J. v.
Keller Indep. Sch. Dist., 328 F.3d 804, 812 (5th Cir. 2003).
a.

Parental Concerns

According to Plaintiffs, the SEHO erroneously
concluded that parental concerns were considered and
addressed by NISD. (Dkt. # 26 at 8.) Plaintiffs argue
that NISD in fact failed to consider or address several
parental concerns, contributing to a denial of a FAPE for
R.B. (Id.) Plaintiffs assert that at the January 13, 2016,
and the February 22, 2016 ARD meetings at Langley
Elementary, R.B.’s mother expressed concerns about the
unilateral reduction in hours of R.B.’s school day. (Id.)
Plaintiffs maintain that NISD refused to consider R.B.’s
previous IEP and conduct an evaluation, and that NISD
summarily concluded that the Florida IEP did not meet
Texas standards. (Id.) Plaintiffs also contend that NISD
unilaterally moved many of R.B.’s services and supports
over his parents’ objections without any explanation. (Id.)
Plaintiffs further argue that at the Langley February
22, 2016 meeting, and the September 20, 2016 meeting
after his transfer to Boldt Elementary, R.B.’s parents
expressed concerns that R.B.’s sensory needs were not
being addressed. For instance, Plaintiffs complain that
NISD told them to buy their own weighted vest when
R.B.’s parents inquired into the use of one. (Dkt. # 26
at 9.) Additionally, Plaintiffs complain NISD refused to
provide correct sensory devices to R.B. or address his

26a
Appendix B
sensory needs. (Id.)
Plaintiffs also contend that at the January 13, 2016,
and the February 22, 2016 ARD meetings at Langley
Elementary, R.B.’s mother requested that R.B.’s Applied
Behavior Analysis (“ABA”) services in his Florida IEP
continue at NISD, or alternatively, that their private
BCBA be allowed to observe and collaborate with NISD
regarding ABA services. (Dkt. # 26 at 9.) According to
Plaintiffs, NISD refused these services. (Id.) Plaintiffs
argue that NISD also ignored parental requests for use
of assistive technology (“AT”) and did not conduct an AT
evaluation. (Id.)
Plaintiffs further complain that the SEHO erroneously
concluded that the denial of extended school year (“ESY”)
services was based on assessment. (Dkt. # 26 at 9.)
Plaintiffs contend that NISD failed to evaluate R.B.’s
need for ESY services, without any negotiations with his
parents, and denying R.B. an educational benefit needed
to prevent the regression of critical skills over the summer
break, thus denying R.B. a FAPE. (Id. at 10.)
Upon review, the Court finds that the record supports
the SEHO’s decision that NISD appropriately considered
R.B.’s parents’ input when formulating R.B.’s IEP. There
is no dispute that R.B.’s mother attended every ARD
meeting, and R.B.’s outside private providers attended
the October 2016 ARD meeting. Outside of the ARD
meetings, the record supports that parental concerns
were considered and addressed by NISD. For instance, a
daily communication log went back and forth from Langley

27a
Appendix B
Elementary to R.B.’s home, and once R.B. transferred
to Boldt Elementary, the PPCD teacher utilized a smart
phone application to communicate. Additionally, upon
parental request, a visual schedule and daily behavioral
chart were provided. Furthermore, a parental request to
transfer campus locations was approved by NISD.
Regarding the number of school hours that R.B.
attended upon his transfer to Langley, the Court has
addressed this issue above. Plaintiffs have not met their
burden of demonstrating that a reduction in the number
of school hours resulted in the denial of a FAPE for R.B.
As for ABA services, while R.B.’s parents expressed
their desire to have such services upon R.B.’s transfer
to NISD, the record is clear that R.B.’s ABA provided
in Florida was privately hired and permitted to visit the
school campus and make recommendations for R.B.’s
teacher. (Dkt. # 6-14 at 98, 321.) The ABA provider did
not provide R.B. therapy through the Florida IEP or the
school. (Id.) Thus, there is no basis for Plaintiffs’ assertion
that NISD ignored their requests for such services when
formulating the IEP or otherwise. Additionally, the record
demonstrates that R.B.’s private BCBA was never denied
access by NISD to R.B.’s school.
Regarding R.B.’s parents requests for AT, more
sensory programs or services, or ESY, there is no evidence
in the record supporting such need upon R.B.’s transfer
to NISD. The record demonstrates that, upon evaluation,
R.B. did not require or need such services beyond what it
was providing to R.B. Plaintiffs have also not met their
burden of demonstrating that a failure to provide any of

28a
Appendix B
these services resulted in R.B.’s regression or inability
to recoup skills.
The right to provide meaningful input is not the
right to dictate the outcome. White, 343 F.3d 373 (citing
Blackmon v. Springfield R-XII Sch. Dist., 198 F.3d 648,
656 (8th Cir. 1999) (determining that if parents are given
the opportunity to participate in the formulation process,
the IDEA requirement of meaningful parental input is
satisfied even if the parents disagree with the decision);
Lachman v. Illinois St. Bd. of Educ., 852 F.2d 290, 297
(7th Cir. 1988) (“[P]arents, no matter how well-motivated,
do not have a right under [the IDEA] to compel a school
district to provide a specific program or employ a specific
methodology in providing for the education of their
handicapped child.”), cert. denied, 488 U.S. 925, 109 S.
Ct. 308, 102 L. Ed. 2d 327 (1988). Absent any evidence of
bad faith exclusion of the parents or refusal to listen to
or consider the R.B.’s parents’ input, NISD met IDEA
requirements with respect to parental input. Thus, on this
record, NISD complied with this procedural component.
b.

IEE Recommendations

Plaintiffs also complain that the SEHO erroneously
found that the Independent Educational Evaluation
(“IEE”) recommendations were implemented. (Dkt. # 26
at 10.) The IEE, referred to by Plaintiffs, was completed
by Dr. Lindsay Heath on June 12, 2017, yielding sixteen
recommendations, eleven of which were school-based, with
the remaining recommendations related to R.B.’s home and
extracurricular activities. (Dkt. # 6-9 at 100-12.) Plaintiffs

29a
Appendix B
argue that the Langley IEP failed to consider eight of the
eleven school-based recommendations and only partially
implemented the three remaining recommendations. (Dkt.
# 26 at 10.) Plaintiffs also argue that the Boldt IEP failed
to consider four of the eleven recommendations and only
partially considered the remaining recommendations. (Id.)
Upon consideration, the Court finds no merit to
Plaintiffs’ contention regarding Dr. Heath’s IEE. The
IEE occurred after R.B.’s ARD meetings and IEP at both
Langley Elementary and Boldt Elementary. Dr. Heath’s
report was issued on June 12, 2017, and R.B.’s ARD
meetings were held on February 22, 2016, and October 25,
2016, or at least a full seven months prior to Dr. Heath’s
report. Thus, it is impossible for NISD to have complied
with a report that was not yet issued.
Finding that a procedural violation is not supported by
the record,10 the Court will turn to the second prong of the
analysis—whether R.B.’s IEP was reasonably calculated
to enable him to receive educational benefits.

10. In Plaintiffs’ response to NISD’s motion, Plaintiffs raise
an argument that NISD’s prior written notices (“PWN”) failed to
explain the denial of R.B.’s parents’ requests. (Dkt. # 27 at 24.)
Plaintiffs contend that during the January 2016 and February 2016
ARD meetings, R.B.’s mother informed NISD of R.B.’s ABA and AT
needs, but the requests were refused without a cogent explanation.
(Id.) The Court, however, does not find any evidentiary support in
the record for this assertion. Even if true, Plaintiffs have not met
their burden of demonstrating that this action resulted in the denial
of a FAPE to R.B.

30a
Appendix B
2.

Whether the IEP Was Reasonably Calculated

A court looks to four factors to determine whether
the IEP was reasonably calculated:
(1) Is the program individualized on the basis
of the student’s assessment and performance;
(2) is the program administered in the least
restrictive environment; (3) are the services
provided in a coordinated and collaborative
manner by the key ‘stakeholders’; and (4) are
positive academic and non-academic benefits
demonstrated?
R.H. v. Plano Indep. Sch. Dist., 607 F.3d 1003, 1012 (5th
Cir. 2010); E.R. by E.R. v. Spring Branch Indep. Sch.
Dist., 909 F.3d 754, 2018 WL 6187765 (5th Cir. 2018).
“[T]hese factors are ‘indicators’ of an IEP’s appropriateness”
and are only “intended to guide a district court in the factintensive inquiry of evaluating whether an IEP provided
an educational benefit.” Richardson Indep. Sch. Dist. v.
Michael Z., 580 F.3d 286, 294 (5th Cir. 2009). “[A] party
attacking the appropriateness of an IEP established by a
local educational agency bears the burden of showing why
the IEP and the resulting placement were inappropriate
under the IDEA.” Id. at 252 (footnote omitted).
a.

Program Individualization

The IEP must be designed to meet the particular
needs of the student based on the student’s assessment
and performance and include “sufficient support services

31a
Appendix B
to allow [him] to benefit from the instruction.” Adam J. ex
rel. Robert J., 328 F.3d at 810. The IDEA requires that:
[i]n developing each child’s IEP, the IEP
Team . . . shall consider (i) the strengths of
the child; (ii) the concerns of the parents for
enhancing the education of their child; (iii) the
results of the initial evaluation or most recent
evaluation of the child; and (iv) the academic,
developmental, and functional needs of the
child.
20 U.S.C. § 1414(d)(3). In addition, the IDEA requires the
IEP to include a “statement of the child’s present levels
of academic achievement and functional performance,
including how . . . the child’s disability affects the child’s
involvement and progress in the general education
curriculum. . . .” Id. at § 1414(d)(1)(A)(i)(I)(aa); 34 C.F.R.
300.320(a)(1).
NISD asserts that R.B.’s IEP was individualized
based on his performance and assessments. (Dkt. # 25
at 14.) It argues that the evidence at the administrative
hearing demonstrated that NISD conducted appropriate
evaluations of R.B. and developed an IEP based on those
evaluations and his performance. (Id.) Plaintiffs, however,
argue that NISD failed to identify and evaluate R.B.’s
individual needs, thus failing to ensure his IEP goals were
appropriate to progress in light of R.B.’s disabilities. (Dkt.
# 26 at 16.) Because of this failure, Plaintiffs contend that
R.B. was denied a meaningful educational benefit. (Id.)

32a
Appendix B
i.

R.B.’s IEP

In developing R.B.’s IEP, the record demonstrates
that the ARD committee considered NISD’s evaluations,
R.B.’s present levels of academic achievement and
functional performance (PLAAFPs), as well as relevant
outside reports. (See Dkt. # 6-7 at 31-67.) Among others,
NISD considered R.B.’s full individual evaluation (“FIE”)
dated February 22, 2016 (id. at 12-30), as well as data
from R.B.’s “COR Advantage” developmental profile and
subsequent reports, which described observed instances of
R.B.’s academic, social, and emotional development, among
others (Dkt. # 6-12). The ARD committee also utilized
R.B.’s behavior data from the classroom, observations,
and progress reports. (Dkt. # 6-8 at 43-62.)
Additionally, at the ARD meeting to formulate the
IEP, R.B.’s teacher described his abilities in the classroom.
(Dkt. # 6-15 at 105; Dkt. # 6-16 at 76, 78.) Some of R.B.’s
strengths and needs were described in the PLAAFP,
and goals were developed by the ARD committee, which
included R.B.’s mother, based on those needs. (Dkt. #
6-7 at 32-34; Dkt. # 6-16 at 76.) The ARD committee
created one speech therapy goal and two behavior goals
based on the information it had for R.B. (Dkt. # 6-7 at
36-38.) The ARD committee also identified the related
services that R.B. required to allow him to benefit from
the educational instruction, including speech and language
services, visual supports, verbal prompts, sensory breaks,
as well as personal care services. (Id. at 39.) The IEP
described the accommodations and program modifications
to assist R.B.’s learning. (Id.) Thus, on this record, the

33a
Appendix B
preponderance of the evidence supports the SEHO’s
conclusion that the IEP was individualized to R.B.’s needs.
ii.

R.B.’s FBA and BIP

Plaintiffs further complain that NISD’s FBAs and
BIPs: (1) were not reasonably calculated from objective
data; (2) failed to address R.B.’s elopement behaviors; and
(3) failed to address R.B.’s physical aggression behaviors.
(Dkt. # 26 at 16-20.) Plaintiffs also argue that NISD failed
to address R.B.’s pica and tantrum behaviors. (Id. at 21.)
Because NISD based R.B.’s IEP on perfunctory FBAs
and BIPs, Plaintiffs contend that R.B.’s behavior goals
were not reasonably calculated, and his IEP therefore
fails to sufficiently address R.B.’s behavior needs. (Dkt.
# 27 at 13.)
The purpose of the FBA is to explore a child’s
misbehavior and discover what, if anything, can be done
to address it and prevent it from occurring again. See
generally 64 Fed. Reg. 12,618 (March 12, 1999). It is an
“educational evaluation” under the IDEA. Harris v. D.C.,
561 F. Supp.2d 63, 67 (D.D.C. 2008). “FBAs rely on the
premise that all behaviors serve a purpose.” Cobb Cnty.
Sch. Dist. v. D.B. ex re. G.S.B., 2015 U.S. Dist. LEXIS
129855, 2015 WL 5691136, at *1 (N.D. Ga. Sept. 28,
2015). “FBAs attempt to identify the underlying reasons
and environmental variables that contribute to problem
behaviors.” Id. “Information gathered through the FBA
helps evaluators design a Behavior Intervention Plan
(“BIP”) with strategies to reduce or eliminate conditions
that encourage problem behaviors and to create conditions
that encourage positive behaviors.” Id. Additionally,

34a
Appendix B
IDEA provides no explicit requirements for
FBAs. Rather, industry standards provide the
framework for such an evaluation. FBAs may be
conducted by educators or behavioral analysts.
First, the evaluator relies on teacher and parent
interviews, direct observation, and school
records to identify targeted behaviors and form
a hypothesis about the purpose of the problem
behaviors. Next, the evaluator collects “ABC”Antecedent, Behavior, Consequence-data.
“Antecedents” are events or environmental
conditions that precede (and presumably
trigger) problem behaviors. “Behavior” refers
to behavior topographies, which describe how
the behavior looks. “Consequence” data records
the immediate aftermath of the behaviors. The
evaluator looks for patterns in the ABC data
to create a hypothesis about the function of
the problem behaviors. Because FBAs have no
explicit requirements, analysts may exercise
substantial discretion in tailoring their data
collection to the particular student.
Cobb Cnty., 2015 U.S. Dist. LEXIS 129855, 2015 WL
5691136, at *1 (emphasis added).
Despite Plaintiffs’ arguments to the contrary, the
administrative record in this case demonstrates that
NISD relied on appropriate evaluations and observations
of R.B.’s behavior. In formulating the FBA and BIP, NISD
appropriately considered R.B.’s behaviors, including
tantrums and spitting, as well as physical aggression.

35a
Appendix B
R.B.’s February 2016 IEP explicitly addressed these
behaviors and included them in the formulation of R.B.’s
FBA and BIP. (Dkt. # 6-7 at 37-38, 54-61.) R.B.’s PPCD
teacher at Langley Elementary observed and reported
R.B.’s physical aggression and spitting behaviors and
used verbal redirection and positive reinforcements to
attempt to correct these behaviors. (Dkt. # 6-7 at 5459; Dkt. 6-16 at 80.) The PPCD testified at the hearing
in front of the SEHO that the ARD committee chose to
focus on R.B.’s physical aggression and spitting because
they were most disruptive to his learning and progress
when they occurred. (Dkt. # 6-16 at 83.) The PPCD kept
consistent data on R.B.’s behaviors and progress, which
formed the baseline data for his behavior goals. (Id. at 81;
Dkt. # 6-12 at 6-37.)
R.B.’s October 2016 IEP and BIP also addressed his
behavioral needs. (Dkt. # 6-12 at 49.) For instance, the
ARD committee developed progressive goals for R.B.
including those for staying in an assigned area for each
grading period. (Id. at 55; Dkt. # 6-15 at 211.) The ARD
committee targeted R.B.’s elopement—leaving or darting
out of the classroom or assigned areas—specifically in
his BIP because of R.B.’s mother’s concerns. (Dkt. #
6-15 at 214-15.) Notably, this behavior was addressed in
the BIP, although the PPCD teacher had not observed
such behavior by R.B. in her classroom. (Id. at 215-16.)
R.B.’s BIP also included positive behavior re-enforcement,
including the ability to earn activities and privileges for
good behavior. (Dkt. # 6-12 at 70.) R.B.’s progress reports
from Boldt Elementary reflect that he met or exceeded
his goals for staying in his assigned area. (Id. at 122-24.)

36a
Appendix B
R.B.’s progress on his behavior is documented. At
the time of the October 2016 ARD committee meeting,
R.B.’s spitting and physical aggression behaviors had
improved. For instance, his behavior chart data from
Langley Elementary showed that he went from a high of
spitting 44 times in a week in March 2016, to the last five
weeks of that school year as only spitting 7, 8, 2, 4, and
0 episodes of spitting, respectively. (Dkt. # 6-12 at 1127.) His behaviors of hitting and throwing show similar
progress. (Id.) Although Plaintiffs complain that certain
information from the behavior tally charts are missing, the
Court does not find evidence supporting this assertion in
the record. Upon the Court’s review, the Court finds that
the charts contain tally marks for each behavior tracked.
(See id.; see also Dkt. # 6-11 at 217.)
Regarding Plaintiffs’ complaints about R.B.’s
pica behavior, Plaintiffs have not met their burden of
demonstrating that such behavior specifically impeded his
learning and therefore was required to be addressed in
an IEP or BIP. Plaintiffs have not identified any evidence
in the record that this behavior was disruptive to R.B.’s
learning and progress while in the classroom. Despite
this, there is evidence in the record that R.B.’s teachers
addressed this behavior when necessary, by redirecting
R.B. or providing him a “chewy,” or a safe object to
chew on, which would successfully allow R.B. to continue
learning. (Dkt. # 6-15 at 145-148.) Likewise, R.B.’s
tantrum behaviors were rare and there were no ongoing
tantrum issues. Instead, his primary behavioral concerns
were addressed in the BIP, such as hitting, spitting, and
throwing. (Id. at 228-230.) Accordingly, on this record,

37a
Appendix B
the preponderance of the evidence supports that R.B.’s
FBA and BIP were reasonably calculated and based on
sufficient evaluations and observations to adequately
address R.B.’s disruptive behaviors.
b.

Least Restrictive Environment

The IDEA contains a “mainstreaming” component,
which requires that “[t]o the maximum extent appropriate,
children with disabilities, including children in public or
private institutions or other care facilities, are educated
with children who are not disabled.” 20 U.S.C. § 1412(5)
(A) (2016). This mandate requires that a disabled child be
placed in the least restrictive environment (“LRE”) that
will provide him with a meaningful educational benefit.
“The least restrictive environment is the one that, to the
greatest extent possible, satisfactorily educates disabled
children together with children who are not disabled, in
the same school the disabled child would attend if the child
were not disabled.” Carlisle Area Sch. v. Scott P., 62 F.3d
520, 535 (3d Cir. 1995).
NISD contends that it fulfilled its obligation to
provided services to R.B. in the LRE to the maximum
extent possible. (Dkt. # 25 at 17.) The Court agrees.
Following his initial 30-day evaluation upon his transfer
from Florida to NISD, R.B. was placed in a collaborative
classroom at both Langley Elementary and Boldt
Elementary. At the hearing before the SEHO, Plaintiffs
conceded that this was the LRE for R.B. at NISD. (Dkt.
# 6-4 at 149.) Regarding his temporary placement in an
ESE self-contained classroom during his initial 30-day

38a
Appendix B
evaluation, there is evidence in the record that supports
that this placement was based off the PPCD teacher’s
conversation with the Florida schools and that this was
comparable to the services R.B. received while a student
in Florida. Accordingly, on the record before the Court,
Plaintiffs have failed to meet their burden of establishing
that R.B.’s IEP was not implemented in the LRE.
c.

Ser vices Provided in a Coordinated,
Collaborative Manner by Key Stakeholders

Coordination and collaboration among the key
“stakeholders” are necessary components of a FAPE.
See R.H., 607 F.3d at 1012; Michael F., 118 F.3d at
253. The IDEA contemplates a collaborative process
between the district and the parents. See R.H., 607 F.3d
at 1008. Here, as addressed above, NISD appropriately
considered R.B.’s parents input in formulating his IEP.
Again, as stated, R.B.’s mother attended every ARD
meeting and NISD regularly met or corresponded with
her regarding any of her concerns. On several occasions,
R.B.’s mother acknowledged and praised R.B.’s teachers
or other NISD personnel for their efforts. At her request,
R.B. was transferred from Langley Elementary to Boldt
Elementary. NISD also allowed R.B.’s private providers
to attend the ARD meetings and provide input.
On this record, the Court finds that Plaintiffs have
failed to meet their burden of demonstrating that
R.B.’s services were not provided in a collaborative
and coordinated manner between them and other key
stakeholders. Reviewing the evidence as a whole, the

39a
Appendix B
preponderance of the evidence supports the SEHO’s
conclusion that there was sufficient coordination and
collaboration among the key stakeholders involved in
R.B.’s education, even if it was not to R.B.’s parents’
satisfaction.
d.

Academic and Non-academic Environment

“The IDEA guarantees an appropriate education,
not a perfect education, and the benefit conferred upon
the student ‘must be meaningful’ and ‘likely to produce
progress.’” Adam J. ex rel. Robert J., 328 F.3d at 80809 (quoting Michael F., 118 F.3d at 248). The Supreme
Court recently explained that an educational program
“must be appropriately ambitious in light of [the student’s]
circumstances.” Endrew F. ex rel. Joseph F. v. Douglas
County School Dist. RE-1, 137 S. Ct. 988, 1000, 197 L. Ed.
2d 335 (2017). “The adequacy of a given IEP turns on the
unique circumstances of the child for whom it was created.
This absence of a bright line rule, however, should not be
mistaken ‘for an invitation to the courts to substitute their
own notions of sound educational policy for those of the
school authorities which they review.’” Id.
“Any review of an IEP must appreciate that the
question is whether the IEP is reasonable, not whether
the court regards it as ideal.” Endrew, 137 S.Ct. at 999
(citing Rowley, 458 U.S. at 208-209). The ultimate goal
is to provide the whole educational experience, adapted
in a way to confer benefits on the child. Hovem, 690 F.3d
at 397. Courts should not lightly disregard educators’
decisions on the appropriate educational methods to

40a
Appendix B
achieve a FAPE. Rowley, 458 U.S. at 204. Further, it is
not necessary for R.B. to improve in every area to show
that his IEP conferred a benefit. See Bobby R., 200 F.3d
at 350 (stating “it is not necessary for Caius to improve
in every area to obtain an educational benefit from his
IEP.”). As the party challenging the IEP, the onus is on
Plaintiffs to show that it was not appropriately ambitious,
because the presumption of the IDEA favors the proposal
of the school district. Salley, 57 F.3d at 467.
Here, Plaintiffs complain that there was no educational
benefit to R.B. at NISD because there is no credible
evidence that R.B. made meaningful educational progress
while there. (Dkt. # 27 at 18.) Plaintiffs insist that R.B.’s
“IEP was not reasonably calculated due to the inadequacy,
or complete absence, of formal evaluations to form the
bases of [his] IEP.” (Id.) Plaintiffs contend, instead, that
the evidence shows that R.B. regressed and any progress
was de minimus.
The SEHO found that R.B. demonstrated progress in
achieving his goals, and that such progress is consistent
with some educational benefit to the program. See, e.g.,
Bobby R., 200 F.3d at 349 (finding an educational benefit
was shown by increased test scores, even if the student
could not keep up with the rest of the class). Although
Plaintiffs disagree with this finding, the legal focus in this
matter is necessarily narrow. Plaintiffs must demonstrate
that R.B.’s IEPs were not reasonably calculated to enable
him to make progress in light of his circumstances.
Endrew E., 137 S. Ct. at 999.

41a
Appendix B
R.B.’s teachers and other key stakeholders at NISD
developed an IEP, which they believed would confer an
educational benefit to him. R.B.’s parents did not object
to either the February 2016 IEP, nor the October 2016
IEP, at the time of the ARD meetings. R.B.’s teachers
and others believed those goals were appropriate. Indeed,
the evidence in the administrative record supports that
R.B. demonstrated progress in key areas addressed by
the IEP. For instance, R.B. improved in his spitting and
physical aggression behaviors. (Dkt. # 6-12 at 11-27.) R.B.
also demonstrated an increase in the use of language to
express his wants and needs. (Dkt. # 6-16 at 92.) It is
also well-documented in the record that R.B. was one of
the higher performing students academically in his class.
Additionally, at the end of the 2016-2017 school year, R.B.
had shown improvement in fine motor skills, literacy,
language, reading, blending sounds, math, counting,
toileting, and classroom behavior. (Dkt. # 6-4 at 26; Dkt. #
6-15 at 255.) R.B. had also made other behavioral progress.
(Dkt. # 6-4 at 26; Dkt. # 6-15 at 255.) Accordingly, on
the record before the Court, the Court finds that NISD
prepared an IEP designed to, and that did, in fact, provide
an educational benefit that was more than de minimus to
R.B., considering his disabilities, and the IDEA creates
a presumption in favor of that plan. Plaintiffs have not
overcome that presumption.
A lthough Plaintiffs insist that the IEPs were
inappropriate and deficient, as discussed previously,
they have not produced enough evidence to show that
the goals were based on irrelevant or inadequate data
or observations. Testing whether a school district’s

42a
Appendix B
educational program was adequate, for FAPE purposes,
should not be a retrospective evaluation of the educational
outcomes achieved. See Fuhr mann on Behalf of
Fuhrmann v. E. Hanover Bd. of Educ., 993 F.2d 1031, 1040
(3d Cir. 1993). It is significant that R.B.’s evaluation and
achievement tests taken both at Langley Elementary and
Boldt Elementary showed signs of improvement. While
R.B.’s program at NISD may not have been as optimal
as Plaintiffs might have liked, the Court is unconvinced
that this program was defective under the IDEA. On the
administrative record before the Court, the Court finds
that a preponderance of the evidence supports that the
SEHO’s conclusion that the IEP was sufficient to offer
R.B. a FAPE.
CONCLUSION
Based on the foregoing, the Court GRANTS NISD’s
Motion for Judgment on the Administrative Record (Dkt.
# 25) and DENIES Plaintiffs’ Motion for Judgment on the
Record (Dkt. # 26). Plaintiffs’ claims are DISMISSED
WITH PREJUDICE. The Clerk’s Office is INSTRUCTED
to ENTER JUDGMENT and CLOSE THE CASE.
IT IS SO ORDERED.
DATED: San Antonio, Texas, December 12, 2018.
/s/ David Alan Ezra		
David Alan Ezra
Senior United States
District Judge

